Sarah Van Hoey
P.O. Box 224
Lenoir City, TN 37771
February 17, 2020
Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Steven T. Walmer and Sarah I/'. Wolmer v. Commissioner ofInternal Revenue
No. 19 488
Petitioner’s Reply Brief
RULE 33.l(h) CERTIFICATE OF COMPLIANCE

Dear Mr. Harris:
As required by Supreme Court Rule 33. l(h), I, Sarah Van Hoey (ﬂ<a Sarah Waltner), one
of the petitioners in the above stated matter, declare that Petitioners’ Reply Brief contains 2,928
words, excluding the parts that are exempted by Supreme Court Rule 33.l(d).
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury under the lavvs of the
United States of America that the foregoing is true and correct.
Executed on February 17, 2020.

Sarah Van Hoey, Petitioner

I

